 

IN THE

Supreme Court of the United States

BRANDON KELLY,
SUPERINTENDENT, OREGON STATE PENITENTIARY,

Petitioner,
Vv.

LAYCELLE TORNEE WHITE,
Respondent.

On Petition for a Writ of Certiorari to the Supreme
Court of the State of Oregon

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,196 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 28, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
